               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-00026-316




      Community Based Outpatient 

             Clinic Reviews 

                    at 

     Sheridan VA Healthcare System 

             Sheridan, WY 





September 19, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                     CBOC Reviews at Sheridan VA HCS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HCS      Health Care System
                       IT       information technology
                       MH       mental health
                       MSDS     material data safety sheets
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       OI&T     Office of Information & Technology
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                     CBOC Reviews at Sheridan VA HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics .............................................................................................              6

  C&P ........................................................................................................................    7

  EOC and Emergency Management ........................................................................                           8


Appendixes
  A. VISN 19 Director Comments .............................................................................                     11

  B. Sheridan VA HCS Director Comments ..............................................................                            12

  C. OIG Contact and Staff Acknowledgments .........................................................                             15

  D. Report Distribution .............................................................................................           16





VA OIG Office of Healthcare Inspections
                                                                CBOC Reviews at Sheridan VA HCS



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of July 22, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name               Location
                                           Casper                  Casper, WY
      19        Sheridan VA HCS
                                           Riverton                Riverton, WY
                                     Table 1. Sites Inspected

Review Results: We made recommendations in two review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the required timeframe and that notification is documented in the EHR.

	 Ensure MSDS are kept current at the Casper and Riverton CBOCs and that staff is
   trained in accessing MSDS for hazardous chemicals in the clinical area at the
   Casper CBOC.

	 Require managers to ensure all exit routes are clearly identified at the Riverton
   CBOC.

	 Ensure testing of the panic alarm system is documented at the Casper and Riverton
   CBOCs.


VA OIG Office of Healthcare Inspections                                                      i
                                                    CBOC Reviews at Sheridan VA HCS




	 Ensure the Chief of OI&T implements required measures at the Casper CBOC.

	 Ensure EOC deficiencies are tracked, trended, and corrected at the Casper and
   Riverton CBOCs.

Comments
VISN and Facility Directors concurred with our recommendations and provided an
acceptable improvement plan. (See Appendixes A and B, pages 11-14, for the
Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                               JOHN D. DAIGH, JR., M.D.
                                              Assistant Inspector General for
                                                   Healthcare Inspections




VA OIG Office of Healthcare Inspections                                          ii
                                                                        CBOC Reviews at Sheridan VA HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                            CBOC Reviews at Sheridan VA HCS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                  2
                                                                                                                     CBOC Reviews at Sheridan VA HCS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                            Uniques FY             Visits FY
VISN            Parent Facility                  CBOC Name                 Locality6                                                  CBOC Size8
                                                                                              20127                  20127
    19        Sheridan VA HCS                      Casper             Urban                    2,651                15,383              Mid-Size
                                                (Casper, WY)
                                                   Gillette            Rural                     1,126               4,957                Small
                                                (Gillette, WY)
                                                    Powell         Highly Rural                  1,366               5,032                Small
                                                (Powell, WY)
                                                  Riverton         Highly Rural                  2,447               9,868              Mid-Size
                                               (Riverton, WY)
                                                Rock Springs       Highly Rural                  1,586               8,874              Mid-Size
                                             (Rock Springs, WY)
                                                             Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                                          CBOC Reviews at Sheridan VA HCS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.9 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.10
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.11 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 20 patients who received a cervical cancer screening at the Sheridan
VA HCS’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 19 EHRs of patients who had normal cervical cancer
screening results and determined that 2 patients were not notified within the required 14
days from the date the pathology report became available.




9
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

10
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

11
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                         CBOC Reviews at Sheridan VA HCS


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.12
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
                      Staff administered the pneumococcal vaccine when indicated.
                      Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations

Generally the CBOCs assigned to the Sheridan VA HCS were compliant with the review
areas; therefore, we made no recommendations.




12
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                CBOC Reviews at Sheridan VA HCS



                              Onsite Reviews 

                      Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs (see Table 5).

                                           Casper                          Riverton
 VISN                                        19                               19
 Parent Facility                     Sheridan VA HCS                  Sheridan VA HCS
 Types of Providers           Licensed Clinical Social Worker       Clinical Nurse Specialist
                                    Physician Assistant         Licensed Clinical Social Worker
                                  Primary Care Physician            Primary Care Physician
                                       Psychiatrist
 Number of MH
                                             605                             288
 Uniques, FY 2012
 Number of MH Visits,
                                            3,473                           2,271
 FY 2012
 MH Services Onsite                          Yes                             Yes
 Specialty Care Services
                                          Cardiology                         WH
 Onsite
 Ancillary Services                  Electrocardiogram                Electrocardiogram
 Provided Onsite                         Laboratory                       Laboratory
 Tele-Health Services                    Cardiology                      Dermatology
                                        Dermatology                          MH
                                            MH                          Primary Care
                                      Retinal Imaging                  Retinal Imaging
                                     Table 5. Characteristics




VA OIG Office of Healthcare Inspections                                                       6
                                                             CBOC Reviews at Sheridan VA HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.13 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.




13
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    7
                                                           CBOC Reviews at Sheridan VA HCS


         NC                              Areas Reviewed (continued)
                       The determination to continue current privileges was based in part
                       on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
     Casper         MSDS were readily available to staff.
     Riverton
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
     Riverton       Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
     Casper         Panic alarms were maintained and tested to ensure operation.
     Riverton
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.


VA OIG Office of Healthcare Inspections                                                 8
                                                                  CBOC Reviews at Sheridan VA HCS


       NC                               Areas Reviewed (continued)
      Casper        IT security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
     Casper         The CBOC was included in facility-wide EOC activities.
     Riverton
                                            Table 7. EOC

MSDS. The Occupational Safety and Health Administration14 require that facilities
maintain current MSDS for each hazardous chemical used in the clinical area and that
this information is available to staff in their work area. We found that the hard copy
information at the Casper and Riverton CBOCs was not current and staff could not
access the online information at the Casper CBOC.

Exit Signs. VHA requires that every exit be clearly visible or the route to reach every
exit be conspicuously indicated.15 The Riverton CBOC had hallways that lead to an
exit; however, the exit was not visible from all vantage points, and the routes to the exits
were not identified.

Panic Alarms. The Casper and Riverton CBOCs provide MH services and have panic
alarms.16 CBOC staff indicated that panic alarm testing does not occur at the Casper
and Riverton CBOCs.

IT Security. According to VA, an access log for the IT closet must be maintained that
includes name and organization of the person visiting, signature of the visitor, form of
identification, date of access, time of entry and departure, purpose of visit, and name
and organization of person visited. Lack of oversight for IT space access could lead to
potential loss of secure information. At the Casper CBOC all staff had unrestricted
access to the key to the IT closet. Additionally, an access log to this area was not
maintained.

EOC Deficiencies. While there is evidence that EOC rounds are conducted at the
CBOCs, identified deficiencies did not have a target date for completion and remained
unresolved. We found an examination table with torn fabric at the Casper CBOC and
non-functioning exit and emergency lights at the Riverton CBOC.




14
   Occupational Safety and Health Administration 1910.1200(g)(8)(10).

15
   NFPA 1, Fire Code, 2012 Edition, General Requirements, Chapter 4.

16
   VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,

September 27, 2012.




VA OIG Office of Healthcare Inspections                                                            9
                                                            CBOC Reviews at Sheridan VA HCS


Recommendations

2. We recommended that MSDS are kept current at the Casper and Riverton CBOCs
and that staff is trained in accessing MSDS for hazardous chemicals in the clinical area
at the Casper CBOC.

3. We recommended that managers ensure all exit routes are clearly identified at the
Riverton CBOC.

4. We recommended that testing of the panic alarm system is documented at the
Casper and Riverton CBOCs.

5. We recommended that the Chief of OI&T implements required measures at the
Casper CBOC.

6. We recommended that EOC deficiencies are tracked, trended, and corrected at the
Casper and Riverton CBOCs.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

           NC                                     Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  10
                                                           CBOC Reviews at Sheridan VA HCS
                                                                                Appendix A
                           VISN 19 Director Comments


               Department of
               Veterans Affairs 	                           Memorandum


       Date: 	         August 26, 2013

       From: 	         Director, VISN 19 (10N19)

       Subject: 	      CBOC Reviews at Sheridan VA HCS

       To: 	           Director, 54SE Healthcare Inspections Division (54SE)

                       Acting Director, Management Review Service (VHA 10AR
                       MRS OIG CAP CBOC)



       1. I have reviewed the OIG Community Based Outpatient Clinic Reviews
          at the Sheridan VA Healthcare System and concur with the responses
          as provided by the Medical Center Director.

       2. If you have any questions or would like to discuss this response,
          please contact Ms. Susan Curtis, VISN 19 HSS at 303-639-6995.




VA OIG Office of Healthcare Inspections                                                11
                                                             CBOC Reviews at Sheridan VA HCS
                                                                                  Appendix B
                   Sheridan VA HCS Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           August 26, 2013

       From:           Director, Sheridan VA HCS (666/00)

       Subject:        CBOC Reviews at Sheridan VA HCS

       To:             Director, VISN 19 (10N19)



       1. After reviewing this report, I concur with the identified findings.

       2. The Sheridan VA Healthcare System has developed and implemented
          the following action plans with designated anticipated completion
          dates.

       3. If you have any questions or would like to discuss this response,
          please contact me at 307-675-3675.




           Debra L. Hirschman




VA OIG Office of Healthcare Inspections                                                  12
                                                         CBOC Reviews at Sheridan VA HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: November 26, 2013

The Women’s Health (WH) primary care providers at the Sheridan VA Healthcare
System (SVAHCS) are responsible for notifying their patients of normal cervical cancer
screening results no later than 14 calendar days from the date on which the results are
available to the ordering practitioner and documenting notification in CPRS. MCM 11-
46, Cervical Cancer Screening, describes the process for quality assurance of
monitoring cervical cancer screening results. In addition, the Women Veterans Program
Manager or her designee receives a view alert message for all cervical cancer screens
performed in the SVAHCS catchment area for tracking of compliance by WH Providers
to relay test results to their patients and document notification in CPRS. Monitoring of
cervical cancer screening results notification and documentation will be reported
quarterly to the Medical Executive Board.

2. We recommended that MSDS are kept current at the Casper and Riverton CBOCs
and that staff is trained in accessing MSDS for hazardous chemicals in the clinical area
at the Casper CBOC.

Concur

Target date for completion: October 31, 2013

MSDS inventory lists for the Casper and Riverton CBOCs have been updated. A point
of contact at each CBOC has been designated to be responsible for review and update
of the MSDS binders. Current Material Safety Data Sheets for products located at both
clinics are available. Staff education for accessing MSDS for hazardous chemicals at
the Casper CBOC is underway and will be completed by October 31, 2013.

3. We recommended that managers ensure all exit routes are clearly identified at the
Riverton CBOC.

Concur

Target date for completion: October 31, 2013


VA OIG Office of Healthcare Inspections                                              13
                                                          CBOC Reviews at Sheridan VA HCS


All exit routes at the Riverton CBOC have been identified. CBOC management is
working with the building owner to install two additional exit signs. Monitoring of exit
signs will occur through the semi-annual EOC rounds at the Riverton CBOC.

4. We recommended that testing of the panic alarm system is documented at the
Casper and Riverton CBOCs.

Concur

Target date for completion: October 31, 2013

The CBOC Security Plan Service Letter is being revised     to reflect testing of the panic
alarm systems at the Casper and Riverton CBOCs.             Staff from each CBOC, in
conjunction with the SVAHCS Safety Office, will conduct    testing of the panic alarms a
minimum of twice yearly. Documentation of CBOC panic       alarm testing will be noted in
the EOC Committee Meeting Minutes.

5. We recommended that the Chief of OI&T implements required measures at the
Casper CBOC.

Concur

Target date for completion: October 31, 2013

The key to the IT closet at the Casper CBOC will be located in a secure area with
access restricted to only a limited number of staff members. The access log for the IT
closet will be maintained with name and organization of the person visiting the area,
signature of the visitor, form of ID, date of access, time of entry and departure, purpose
of visit and name of CBOC staff member who allowed access to the IT closet.
Monitoring of IT closet access and log will occur at the semi-annual EOC rounds and
randomly by CBOC management staff.

6. We recommended that EOC deficiencies are tracked, trended, and corrected at the
Casper and Riverton CBOCs.

Concur

Target date for completion: November 29, 2013

Environment of Care deficiencies are identified through EOC rounds at the Casper and
Riverton CBOCs as well as through work orders initiated by clinic management.
Tracking of EOC deficiencies is done by the SVAHCS Safety Manager and documented
through EOC Surveys and EOC Committee meeting minutes. A target date for
completion with follow-up documentation that deficiencies have been corrected will be
included in the EOC meeting minutes.




VA OIG Office of Healthcare Inspections                                                14
                                                           CBOC Reviews at Sheridan VA HCS
                                                                                Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Sami O’Neill, MA, Team Leader
Contributors            Noel Rees, MPA
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Marc Lainhart, BS
                        Karen Moore, RNC, MSHA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  15
                                                       CBOC Reviews at Sheridan VA HCS
                                                                            Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 19 (10N19)
Director, Sheridan VA HCS (666/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Barrasso, Michael B. Enzi
U.S. House of Representatives: Cynthia Lummis


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              16
